HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in Indiana That Were Paid Under the Medicaid Program,"(A-05-02-00075)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in
Indiana That Were Paid Under the Medicaid Program," (A-05-02-00075)
November 25, 2003
Complete
Text of Report is available in PDF format (409 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We reviewed a statistical sample of the records of 200 children from a population of 18,493 children in Indiana who were
covered by Title IV-D of the Social Security Act.  Based on the sample, we estimated that the noncustodial parents
of 4,808 of these children could have contributed about $3.0 million towards the costs paid by Medicaid for medical services
provided during the period June 1, 2001 through May 31, 2002.  We recommended that Indiana consider the results of
our study and pursue collecting the Medicaid costs incurred by the children of noncustodial parents who have medical support
orders and the ability to pay.